No. 20-216

In the Supreme Court of the United States
PRIANKA BOSE, PETITIONER
v.
RHODES COLLEGE AND ROBERTO DE LA SALUD BEA,
RESPONDENTS.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF FOR RESPONDENT RHODES COLLEGE IN
OPPOSITION

LISA S. BLATT
Counsel of Record
SARAH M. HARRIS
SUMEET P. DANG
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
lblatt@wc.com

QUESTION PRESENTED

Petitioner’s chemistry professor reported her to a disciplinary body of Rhodes College for cheating, and
Rhodes College subsequently expelled her for cheating.
Petitioner asserts that her chemistry professor accused
her of cheating because she rejected his romantic advances.
The question presented is whether petitioner may
bring an implied cause of action under Title IX for damages against Rhodes College if the college lacked actual
notice of the chemistry professor’s alleged retaliatory motive.

(I)

II
TABLE OF CONTENTS

INTRODUCTION ................................................................ 1
STATEMENT ....................................................................... 2
A.
Facts...................................................................... 2
B.
Proceedings Below .............................................. 6
REASONS FOR DENYING THE PETITION .............. 8
I.
The Sixth Circuit’s Decision Was Correct ............. 9
II.
This Case Does Not Implicate Any Circuit
Split ........................................................................... 15
III. This Case Does Not Warrant This Court’s
Review....................................................................... 18
CONCLUSION ................................................................... 22

III

TABLE OF AUTHORITIES

Cases:
Page
Davis ex rel. LaShonda D. v. Monroe Cnty.
Sch. Bd. of Educ., 526 U.S. 629 (1999) .............. 12, 13
Doe v. Columbia Univ.,
831 F.3d 46 (2d Cir. 2016)......................................... 16
Emeldi v. Univ. of Oregon,
698 F.3d 715 (9th Cir. 2012) ............................... 17, 18
Gebser v. Lago Vista Indep. Sch. Dist.,
524 U.S. 274 (1998) ........................................... passim
Gossett v. Oklahoma ex rel. Bd. of Regents for
Langston Univ.,
245 F.3d 1172 (10th Cir. 2001) ................................. 17
Grupo Mexicano de Desarrollo, S.A. v.
Alliance Bond Fund, Inc.,
527 U.S. 308 (1999) .................................................... 18
Papelino v. Albany Coll. of Pharmacy of Union
Univ., 633 F.3d 81 (2d Cir. 2011) .............. 7, 8, 15, 16
Staub v. Proctor Hosp., 562 U.S. 411 (2011) ................ 13
Theidon v. Harvard Univ.,
948 F.3d 477 (1st Cir. 2020)...................................... 18
Williams ex rel Hart v. Paint Valley Local Sch.
Dist., 400 F.3d 360 (6th Cir. 2005) ............................ 8
Statutes and Regulations:
20 U.S.C. § 1681(a) .......................................................... 11
20 U.S.C. § 1682 ............................................................... 11
34 C.F.R. § 106.1 .............................................................. 12
The Civil Rights Act of 1964
Title VII ........................................................................ 1
Title IX............................................................... passim

In the Supreme Court of the United States
No. 20-216
PRIANKA BOSE, PETITIONER
v.
RHODES COLLEGE AND ROBERTO DE LA SALUD BEA,
RESPONDENTS.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF FOR RESPONDENT RHODES COLLEGE IN
OPPOSITION

INTRODUCTION

This case is manifestly unsuitable for this Court’s review. The petition, in both the question presented and the
entire body of the brief, obfuscates two distinct legal questions: (1) whether the cat’s paw theory of respondeat superior liability recognized under Title VII is a viable theory under a Title IX implied right of action; and
(2) whether a school that acts with deliberate indifference

(1)

2
to known retaliation on the basis of sex is liable under Title IX’s implied right of action. That distinction is critical.
The former question assumes that a school acted without
any knowledge of discrimination or retaliation whatsoever. By contrast, the second question depends on the
school’s actual knowledge of retaliation and the school’s
failure to afford an adequate remedy. In the decision below, the Sixth Circuit addressed only the former question
and correctly held that there is no Title IX implied right
of action against schools that lack actual notice of someone
else’s alleged retaliation. As to the second question, the
court of appeals declined to address whether schools that
do have actual notice and are deliberately indifferent to
someone else’s alleged retaliatory acts can be liable, because the court found that petitioner had forfeited that argument many times over. Because the first holding is correct and does not conflict with the decision of any other
circuit, and the second question was neither pressed nor
passed on below, the Court should deny certiorari.
STATEMENT
A. Facts

1. Petitioner Prianka Bose was a student at Rhodes
College, a small but prominent liberal arts institution in
Memphis, Tennessee. Pet. App. 2a. In fall 2015, petitioner took a course, “Organic Chemistry II,” taught by
faculty member Dr. Roberto de la Salud Bea. Id. at 2a3a. Dr. Bea gave all of his students the option to take tests
and quizzes early, and petitioner often took this option.
Id. at 3a. Dr. Bea let petitioner take some of these early
tests or quizzes alone in his office, leaving his computer on
and accessible on his desk when he left. Id.
In November 2015, petitioner took a quiz in Dr. Bea’s
office and Dr. Bea left while she did so. Pet. App. 3a-4a.
Dr. Bea testified that when he later returned to his office,

3
the answer key on his computer was open in an enlarged
view that he did not typically use. Id. Later that month,
petitioner again took an exam alone in Dr. Bea’s office. Id.
at 4a. Dr. Bea returned to find his office door closed and
locked, despite his usual practice of leaving the door
cracked open when he left; after he was able to enter, he
found petitioner standing by his desk. Id. Petitioner testified that she had accidentally closed the door (causing it
automatically to lock), then got up to let Dr. Bea in. Id.;
C.A. Rec. at 1322-23.1
After these incidents, Dr. Bea told a colleague that he
suspected a student of cheating. Pet. App. 5a. Dr. Bea’s
colleague advised him to create a fake answer key with
incorrect answers and leave it accessible on his computer
to see whether the student used it. Id. Dr. Bea testified
that he did so before petitioner took the next quiz in his
office, and petitioner’s answers to the quiz matched his
fake answer key precisely. Id. Dr. Bea informed college
administrators, who then involved the Rhodes College
Honor Council, an elected student body that adjudicates
accusations of academic dishonesty. Id.; C.A. Rec. at
1312-13.
2. A few days after Quiz 5, the Honor Council informed petitioner that she was under investigation for
suspected cheating on multiple assignments in Dr. Bea’s
course. Pet. App. 5a. An Honor Council member interviewed petitioner three times and discussed the allegation
that she had copied her answers to Quiz 5 from the fake
answer key Dr. Bea had prepared. C.A. Rec. at 1313-14.

1
Citations to “C.A. Rec.” refer to the pages of the district court
record, using the Sixth Circuit’s “Page ID” convention. Citations to
“C.A. App’x” refer to petitioner’s appendix in the Sixth Circuit.

4
The Honor Council subsequently held a hearing to address the cheating accusations. Pet. App. 5a-6a. Petitioner’s defense was that Dr. Bea’s allegations were just a
“huge misunderstanding.” C.A. App’x at 23. In support
of that argument, petitioner called five witnesses to testify
how she might have arrived at her answers without cheating. Id. at 23-24, 27, 33-35, 42-43, 47-48; C.A. Rec. at 1317.
But several of these witnesses acknowledged inferring a
“red flag” or “indicat[ions] of a student being academically dishonest” from the fact that petitioner’s answers
perfectly matched the fake answer key. C.A. App’x at 4445, 51.
None of petitioner’s witnesses testified that Dr. Bea
had acted inappropriately towards her. In her closing argument, petitioner described for the first time an incident
in which she claimed Dr. Bea had asked her about her boyfriend, and, when petitioner then asked Dr. Bea not to discuss personal topics with her, Dr. Bea allegedly got angry
and walked away. Id. at 72. After recounting this allegation, however, petitioner told the Honor Council that she
did not “know why [her] quiz matches Dr. Bea’s answer
key.” Id. After the hearing ended, petitioner asked to recall one of her witnesses to support her new allegation
about her interactions with Dr. Bea, but the Honor Council declined to reopen the proceedings. C.A. Rec. at 1082,
1318.
The Honor Council found that the evidence presented
at the hearing was “clear and convincing” that petitioner
“had stolen answers . . . from Dr. Bea’s computer and used
them to cheat.” Pet. App. 6a. The Honor Council reasoned that petitioner’s answers “matched verbatim to an
incorrect answer key” when no one else in the class gave
similar answers, and petitioner’s own “witnesses testif[ied] to the near impossible odds of her answers.” C.A.

5
Rec. at 1079-80. The Honor Council further rejected petitioner’s allegations of Dr. Bea’s misconduct: “On at least
three occasions, the [Honor Council] investigator asked if
[petitioner] could think of any reason why Dr. Bea would
create a false answer key after [petitioner] had taken Quiz
5 . . . [but petitioner] responded each time, as well as during the hearing, that she had no idea why he would do
that.” Id. at 1081. Given the severity of the offense, and
what the Honor Council deemed petitioner’s “egregious
lies” during her hearing, the Honor Council voted to expel
her. Pet. App. 6a.
Petitioner appealed to the Faculty Appeals Committee. Id. Her appeal statement included additional allegations that Dr. Bea had acted inappropriately. C.A. Rec. at
1318-19. Petitioner alleged that Dr. Bea had asked her
about personal issues in several of their conversations and
invited her to have dinner with him. Id. Petitioner further alleged that Dr. Bea gave her more attention in class
than other students. Id.
After another hearing, the committee upheld the
Honor Council’s decision. Pet. App. 6a; C.A. Rec. at 1319.
The committee concluded that, even assuming arguendo
that petitioner’s allegations of inappropriate behavior by
Dr. Bea were valid, the Honor Council still had adequate
evidence showing that petitioner had cheated. C.A. Rec.
at 1319-20. The committee remanded for reconsideration
of the expulsion penalty, and the Honor Council again
voted to expel petitioner. Pet. App. 6a.
After the Honor Council made its decision, petitioner
filed a Title IX complaint with Rhodes alleging sexual harassment and retaliation by Dr. Bea. Id. After interviewing petitioner, Dr. Bea, and all other witnesses that petitioner requested, the Title IX investigator concluded that
petitioner’s allegations could not be sustained. Id.; C.A.

6
Rec. at 1320-21.
B. Proceedings Below

1. In May 2016, petitioner filed suit against Rhodes
and Dr. Bea in the Western District of Tennessee, alleging, inter alia, that Rhodes had violated Title IX and was
liable for damages “in excess of $5,000,000.” C.A. Rec. at
19. As relevant here, petitioner argued that Rhodes was
liable for retaliation under a “cat’s paw” theory: petitioner contended that Dr. Bea’s alleged retaliatory animus should be imputed to Rhodes. Petitioner thus argued
that Rhodes’s decision to expel her violated Title IX “regardless of whether [Rhodes] had actual knowledge of
[Dr. Bea’s] retaliatory animus or [petitioner’s] protected
activity.” C.A. Rec. at 1293-1300 (emphasis added).
The district court granted summary judgment to
Rhodes on petitioner’s retaliation claim. The court
deemed her cat’s paw theory of liability inapplicable in the
Title IX context. Citing this Court’s decision in Gebser v.
Lago Vista Independent School District, 524 U.S. 274
(1998), the court reasoned that Title IX requires that petitioner demonstrate that Rhodes had “actual knowledge
of Dr. Bea’s alleged retaliatory animus.” Pet. App. 34a35a. The court reasoned that petitioner’s cat’s paw theory
of liability, which petitioner rested on Rhodes’s “vicarious
liability or constructive notice” of Dr. Bea’s alleged retaliatory motive, was insufficient to meet that standard. Id.
2. The Sixth Circuit agreed, unanimously holding that
Title IX was incompatible with petitioner’s cat’s paw theory. Id. at 9a-10a. Relying on this Court’s decision in
Gebser, the Sixth Circuit reasoned that “‘a damages remedy will not lie under Title IX unless an official who at a
minimum has the authority to address the alleged dis-

7
crimination and to institute corrective measures on the recipient’s behalf has actual knowledge of discrimination’
and responds with ‘deliberate indifference.’” Id. at 10a
(quoting Gebser, 524 U.S. at 290). But under the cat’s paw
theory of liability that petitioner presented, “the decisionmaker [here, Rhodes] need not have notice of the subordinate’s discriminatory purpose.” Id. at 12a (emphasis
added). The Sixth Circuit thus held that Title IX does not
encompass petitioner’s cat’s paw theory, which would
punish schools that had no actual knowledge of a subordinate’s discriminatory animus. Id. at 12a-13a.
The Sixth Circuit distinguished Papelino v. Albany
College of Pharmacy of Union University, 633 F.3d 81 (2d
Cir. 2011). Id. at 13a-15a. The court acknowledged some
language in Papelino that might be read to support petitioner’s no-knowledge-required cat’s paw theory. Specifically, the court noted the Second Circuit’s observation
that a reasonable jury could find that the college disciplinary panel there was “acting on [a professor’s] explicit
[retaliatory] encouragement” when the panel expelled a
student, even assuming the panel was “unaware that [the
student] had engaged in protected activity.” Id. at 14a.
The Sixth Circuit stated that, to the extent the Second
Circuit had adopted a notice-free theory of Title IX liability, the Sixth Circuit declined to follow it. Id.
But the Sixth Circuit ultimately found Papelino distinguishable because the student there had notified the
Dean of his protected activity, and “it was the College’s
own behavior—its deliberate indifference to the professor’s known retaliatory act—that subjected the College to
Title IX liability.” Id. at 14a-15a. Here, by contrast, the
Sixth Circuit concluded that petitioner had forfeited any
theory of liability that Rhodes had actual knowledge of

8
Dr. Bea’s alleged retaliation and decided to expel her anyway. Id. at 15a-17a.
The Sixth Circuit did “not speculate whether the outcome would have been different had [petitioner] pursued
a theory that Rhodes was deliberately indifferent to Bea’s
known retaliation.” Id. at 17a. But the court identified
many open questions about the viability of that unpursued
theory. Id. For example, under Sixth Circuit precedent,
did petitioner “adequately inform [Rhodes] of the alleged
retaliation” and was “Rhodes’ response ‘clearly unreasonable’ in light of what Rhodes knew?” Id. (quoting Williams ex rel Hart v. Paint Valley Local Sch. Dist., 400
F.3d 360, 367-68 (6th Cir. 2005)). Is “deliberate indifference to retaliation even actionable under Title IX?” Id.
The Sixth Circuit concluded that petitioner’s “failure to
advance a deliberate-indifference-to-retaliation theory
below deprive[d] [the Sixth Circuit] of the ability to review
these questions.” Id.
The Sixth Circuit denied rehearing en banc with no request for a vote or dissent. Pet. App. 59a. This petition
followed.
REASONS FOR DENYING THE PETITION

The Sixth Circuit correctly held that Title IX plaintiffs
cannot hold universities liable for damages based on a
professor’s alleged misconduct if the university lacks actual notice of that alleged misconduct. This Court has
made clear that an implied right of action for damages under Title IX requires that “an official of the school district
who at a minimum has authority to institute corrective
measures on the [school’s] behalf has actual notice of, and
is deliberately indifferent to, [a] teacher’s misconduct.”
Gebser v. Lago Vista Indep. Sch. Dist., 524 U.S. 274, 277
(1998) (emphasis added). But the cat’s paw theory that

9
petitioner pursued below sought to hold Rhodes liable for
Dr. Bea’s knowledge of his own alleged misconduct, not
Rhodes’s knowledge of that misconduct. Petitioner identified no one at Rhodes who had “authority to institute
corrective measures” and had “actual notice of, and [was]
deliberately indifferent to” Dr. Bea’s alleged misconduct.
Id. The Sixth Circuit was thus correct that Gebser
squarely foreclosed petitioner’s theory of liability. And
petitioner identifies no split in authority with respect to
the Sixth Circuit’s actual holding. No court has allowed a
Title IX claim to proceed when the school lacked actual
notice of a teacher’s alleged misconduct.
Petitioner now argues that Rhodes had actual notice
of Dr. Bea’s alleged retaliatory motive in accusing her of
cheating, yet deliberately ignored that allegation and decided to expel her anyway. But, as the Sixth Circuit held,
petitioner forfeited any actual-notice argument below.
The Sixth Circuit thus did not consider petitioner’s current theory, nor should this Court. Petitioner’s forfeiture
prevented the court below from addressing many highly
fact-driven issues that would have arisen had petitioner
pressed an argument that Title IX allows damages suits
against universities for alleged deliberate indifference to
a professor’s retaliation against a student.
Petitioner’s policy arguments falter for similar reasons. Nothing about the Sixth Circuit’s decision remotely
suggests that universities can blind themselves to discrimination in their programs to avoid Title IX liability.
I. The Sixth Circuit’s Decision Was Correct

1. Below, petitioner premised her Title IX case
against Rhodes on the allegation that “[Dr.] Bea used
Rhodes’ Honor Council proceedings as a mechanism to
carry out his retaliatory agenda.” Pet’r CA6 Op. Br. 37-

10
38. Under this “cat’s paw” theory, petitioner sought to
“imput[e] [Dr. Bea’s] knowledge and discriminatory intent” to Rhodes, even where Rhodes did “not have notice
of [Dr. Bea’s] discriminatory purpose.” Pet. App. 12a.
(emphasis added). The Sixth Circuit correctly rejected
petitioner’s argument that Title IX implicitly authorizes
plaintiffs to hold universities liable for millions of dollars
in damages even if they lacked actual notice of an employee’s alleged intent to retaliate on the basis of sex.
Because the text of Title IX does not provide for a private cause of action, the Sixth Circuit rightly looked to
this Court’s decision in Gebser v. Lago Vista Independent
School District, which “define[d] the contours” of petitioner’s implied Title IX action. 524 U.S. at 281. Specifically, Gebser held that an implied “damages remedy will
not lie under Title IX unless an official who at a minimum
has the authority to address the alleged discrimination . . . has actual knowledge of discrimination in the recipient’s programs and fails to adequately respond.” Id.
at 290 (emphases added).
Gebser refutes petitioner’s “cat’s paw” theory of Title
IX liability. Pet. App. 8a-13a. Petitioner alleged that Dr.
Bea used the Honor Council as a “mechanism to carry out
his retaliatory agenda.” Pet’r CA6 Op. Br. 37-38 (emphasis added). But, since petitioner does not contend Dr. Bea
was a school official, that allegation did not establish that
Rhodes had “actual knowledge” of discrimination in its
programs. At most, under petitioner’s cat’s paw theory,
Rhodes was an “unwitting tool” in Dr. Bea’s alleged retaliatory scheme—and that falls short of the actual
knowledge and deliberate indifference that Gebser requires. Pet. App. 12a.
Gebser also rejected the notion that Title IX plaintiffs
can impute a school employee’s knowledge to the school.

11
As the Court explained: “When a teacher’s sexual harassment is imputed to a school district or when a school district is deemed to have ‘constructively’ known of the
teacher’s harassment, by assumption the district had no
actual knowledge of the teacher’s conduct.” 524 U.S. at
289. Gebser thus expressly rejected petitioner’s theory.
Dr. Bea’s knowledge of his alleged retaliation is “not pertinent to the analysis,” because Title IX holds Rhodes liable only for its decisions, not “for its employee’s independent actions.” Id. at 290-91.
2. Petitioner’s critiques of the Sixth Circuit’s decision
are meritless. Petitioner faults the Sixth Circuit for focusing its analysis on Gebser instead of the language of 20
U.S.C. § 1681(a), which prohibits adverse action by a college “on the basis of sex.” Pet. at 13, 17-18. But petitioner’s cause of action is judicially implied, and Gebser
defines additional elements of that implied cause of action.
Congress enacted Title IX as a condition of universities’
receipt of federal funding, so Title IX’s express enforcement scheme (in section 1682) relies on administrative action, not an express, private cause of action. And, as
Gebser explained, Title IX’s express administrative enforcement scheme requires that the school receive notice
of a Title IX violation and an opportunity for voluntary
compliance before facing agency enforcement actions.
524 U.S. at 288-89. Consistent with that express scheme,
Gebser held that an implied Title IX cause of action must
show, in addition to Title IX’s textual requirement for discrimination “on the basis of sex,” that the school had actual knowledge of misconduct and responded inadequately. 524 U.S. at 288-90. The Sixth Circuit thus correctly concluded that petitioner’s implied cause of action
is governed—and doomed—by Gebser’s knowledge requirement.

12
For similar reasons, petitioner’s reliance (at 16-17) on
Department of Education Title IX regulations is inapt, because those regulations do not illuminate the standards
governing petitioner’s implied cause of action. Those regulations effectuate Title IX’s express enforcement scheme
by Federal agencies. 34 C.F.R. § 106.1. And those regulations also require notice to the university of a potential
Title IX violation before an agency takes an enforcement
action. Gebser, 524 U.S. at 288. Gebser accordingly found
the regulations supportive of, not inconsistent with, an actual notice requirement for implied Title IX liability. Id.
Petitioner (at 18-19) tries to avoid Gebser by claiming
that she seeks to hold Rhodes liable for affirmative conduct (i.e., its own decision to expel petitioner), not inaction. But that distinction is immaterial under Gebser,
which requires plaintiffs to show that the school had actual notice of discrimination in its programs regardless of
what the school then did or failed to do. Gebser confirmed
that a school that did have notice of harassment and still
did nothing could have been liable—underscoring that actual notice is the key ingredient for an implied Title IX
claim. Id. at 291; see also Davis v. Monroe Cnty. Bd. of
Educ., 526 U.S. 629, 641 (1999) (holding “the Board liable
for its own decision to remain idle in the face of known
student-on-student harassment in its schools”).
For similar reasons, petitioner’s attempt (at 13-14, 18)
to frame her cat’s paw theory as one of causation is unavailing. Petitioner pinpoints Rhodes’s actions as the proximate cause of petitioner’s expulsion, but that argument is
irrelevant. Even were the school’s action the proximate
cause, “a recipient of federal funds may be liable in damages under Title IX only for its own misconduct,” Davis,
526 U.S. at 640 (emphasis added), not “for its employees’
independent actions,” Gebser, 524 U.S. at 290-91. As the

13
Sixth Circuit reasoned, that principle forecloses petitioner’s cat’s paw theory, which is premised on Dr. Bea’s
alleged retaliatory motive in accusing petitioner of cheating, not on Rhodes’s “official decision” to expel petitioner.
Pet. App. 12a-13a. Without knowledge of Dr. Bea’s alleged retaliatory agenda, Rhodes’s decision to expel petitioner for cheating plainly cannot trigger Title IX liability.
Contrary to petitioner’s contentions (at 1-2, 14-15),
Staub v. Proctor Hospital, 562 U.S. 411 (2011), does not
change this conclusion. Applying common-law agency
principles, Staub held that a plaintiff stated a claim for
discrimination under the Uniform Services Employment
and Reemployment Rights Act against his employer
based on discriminatory conduct by the employee’s supervisor. Id. at 416-23. The supervisor “committed an action
based on discriminatory animus that was intended to
cause, and did in fact cause, an adverse employment decision.” Id. at 421. Those facts supported the employer’s
liability because the supervisor acted as “an agent of the
employer, [so] when he causes an adverse employment action the employer causes it.” Id. at 421-23.
Those agency principles have no place in Title IX implied actions. This Court has repeatedly “rejected the use
of agency principles to impute liability to [a school] for the
misconduct of its teachers” under Title IX. Davis, 526
U.S. at 642; see Gebser, 524 U.S. at 283 (“Title IX contains
no . . . reference to an educational institution’s ‘agents,’
and so does not expressly call for application of agency
principles.”). In the Title IX context, any alleged misconduct by Dr. Bea is Dr. Bea’s alone, not Rhodes’s.
3. The bulk of petitioner’s argument attacks a strawman version of the Sixth Circuit’s decision. Petitioner argues that the Sixth Circuit held that Rhodes could not be
liable under Title IX despite notice of Dr. Bea’s alleged

14
retaliatory motive. But that argument depends on the assumption that Rhodes had notice—an assumption that
pervades the petition. Start with petitioner’s purported
question presented, which frames the issue before this
Court as whether Rhodes is liable under Title IX for expelling petitioner “despite being warned about [her] professor’s discriminatory motive” in accusing her of cheating. Pet. I. In more than a dozen places, the petition similarly features statements like, “Bose repeatedly warned
Rhodes College that [her professor] was framing her for
rejecting his romantic advances, and the school gave effect to his discriminatory agenda anyway.” Pet. 11; see id.
at 1-3, 12, 19-20, 22 n.6, 28-29. And petitioner consistently
argues that these warnings gave Rhodes “actual notice”
of misconduct. Id. at 19-20, 28-29.
The petition inexplicably omits that the Sixth Circuit
found that petitioner had repeatedly forfeited this argument below, so the Sixth Circuit never reached petitioner’s question presented. Petitioner never relied on a
theory of liability in district court or the Sixth Circuit that
Rhodes knew of Dr. Bea’s alleged retaliation and was deliberately indifferent to it. Pet. App. 15a-17a. In her district court briefing, petitioner contended that Rhodes was
liable to her for damages “regardless of whether [Rhodes]
had actual knowledge of [Dr. Bea’s] retaliatory animus or
[petitioner’s] protected activity.” C.A. Rec. at 1293-1300
(emphasis added). Likewise, on appeal to the Sixth Circuit, petitioner confirmed that her cat’s paw theory “refers to a situation in which a biased subordinate, who lacks
decisionmaking power, uses the formal decisionmaker as
a dupe in a deliberate scheme to trigger” an adverse action. CA6 Op. Br. 38 (quotations omitted and emphasis
added). Petitioner confirmed again at argument in the
Sixth Circuit that she was not pursuing a deliberate-indifference theory based on actual notice. Pet. App. 16a.

15
The Sixth Circuit thus emphasized that in light of petitioner’s forfeitures, it was not resolving whether
“Rhodes was deliberately indifferent to Bea’s known retaliation.” Pet. App. 17a. Resolving that question, the
Sixth Circuit explained, would have required the court to
consider several fact-driven ancillary questions that no
party had sufficiently briefed. Id. The Sixth Circuit instead answered the only question that petitioner did
properly present: whether Rhodes could be liable under
a cat’s paw theory of liability, under which Rhodes “need
not have notice of [Dr. Bea’s] discriminatory purpose.”
Pet. App. 12a. The Sixth Circuit was unambiguously correct that Gebser precludes that cat’s paw theory.
II. This Case Does Not Implicate Any Circuit Split

1. Petitioner argues (at 22) that the decision below
conflicts with the Second Circuit’s decision in Papelino v.
Albany College of Pharmacy, 633 F.3d 81 (2d Cir. 2011).
In Papelino, a student reported his professor’s sexual advances to a Dean at his university; his professor retaliated
by accusing the student of cheating, ultimately prompting
a school disciplinary body to expel him. Id. at 85-88. The
Second Circuit allowed the student’s Title IX claim to proceed. Id. at 94.
Petitioner (at 22) cites isolated language in Papelino
regarding the disciplinary panel’s lack of knowledge of the
student’s harassment complaints. In particular, the Second Circuit observed—without explanation—that a reasonable jury could find that the disciplinary panel had
“act[ed] on [the professor’s] explicit encouragement” even
if it was “unaware that [the student] had engaged in protected activity.” Id. at 92-93. The Sixth Circuit noted that,
to the extent this language had embraced a theory under
which the university could be liable without actual notice

16
of the professor’s misconduct, it declined to follow it. Pet.
App. 14a.
But, as the Sixth Circuit explained, Papelino could
also be read to be based on the university’s knowledge of
such misconduct in light of the student’s complaints to the
Dean. Id. at 14a-15a. Because the Dean was “high-ranking member of the College’s administration,” the Second
Circuit concluded that, under Gebser, his knowledge
meant that the school had actual notice of the professor’s
actions. 633 F.3d at 89. By contrast, petitioner here forfeited any argument relying on Rhodes’s knowledge of
and deliberate indifference to Dr. Bea’s alleged retaliation. Pet. App. 15a-16a. Thus, the Sixth Circuit ultimately
found Papelino distinguishable. Petitioner’s argument
that the Second Circuit’s decision could be read to conflict
with the decision below falls far short of presenting a
square conflict to justify this Court’s intervention.
Petitioner also cites (at 23), Doe v. Columbia University, 831 F.3d 46 (2d Cir. 2016). But that decision too involved actual knowledge by the university. In Doe, a university disciplinary panel suspended a male student for
sexual assault; he brought a Title IX claim alleging that
the school’s Title IX Coordinator harbored anti-male bias
that influenced the disciplinary panel’s decision. Id. at 5153. The Title IX Coordinator, as the alleged bad actor,
clearly had actual notice of her own discriminatory intent.
And the plaintiff had sufficiently alleged that the Title IX
Coordinator’s intent was the school’s intent, the Second
Circuit reasoned, because the Title IX Coordinator exercised “supervisory authority.” Id. at 58-59; see also id. at
58 n.12 (noting that Gebser would bar the student’s claim
if discovery revealed the Coordinator did not have such
authority). That fact pattern starkly contrasts with Dr.
Bea’s non-supervisory role at Rhodes. Nothing in Doe

17
suggests that a school could be liable under Title IX absent actual knowledge by a school official of discrimination in its programs.
No other courts of appeals have allowed plaintiffs to
pursue implied Title IX actions against schools that lack
actual notice of alleged discrimination or retaliation, either. Petitioner (at 23-24) misreads Gossett v. Oklahoma
ex rel. Board of Regents for Langston University, 245
F.3d 1172 (10th Cir. 2001), as allowing a Title IX claim to
proceed “without requiring [a student] to prove that the
school itself, or any school officials other than his instructors, were also biased.” In Gossett, a student was forced
to withdraw from his nursing school due to a poor grade.
He then alleged a “facility-wide policy” of gender discrimination: that “the Nursing school routinely discriminated
on the basis of gender in applying its school-wide policy
of allowing failing students . . . time to improve their performance,” producing alleged “school-wide gender discrimination.” Id. at 1177-79 (emphasis added). Petitioner
is thus flat wrong that Gossett rested on the independent
actions of a particular teacher.
Petitioner (at 24) also points to Emeldi v. University
of Oregon, 698 F.3d 715 (9th Cir. 2012), to no avail. In
Emeldi, “all Department faculty” became aware of a
Ph.D. candidate’s complaints regarding the lack of female
faculty, such that it was “common knowledge” that “she
was dissatisfied with the Department’s level of support for
women.” Id. at 722. The student’s male Ph.D. advisor allegedly resigned in retaliation for the student’s complaints. Id. at 722-23. After pursuing the “[u]niversity’s
internal grievance procedure,” the student brought a Title
IX retaliation claim against the university, which the
Ninth Circuit allowed to proceed. Id. at 723, 725-30. Contrary to petitioner’s suggestion, the student in Emeldi

18
had unquestionably and repeatedly notified the university
of her concerns of discrimination and retaliation. Emeldi
thus offers no support whatsoever for the notion that universities like Rhodes would be liable under Title IX in
other circuits without such notice.
Finally, Theidon v. Harvard University, 948 F.3d 477
(1st Cir. 2020) does not help petitioner, either. There, a
professor filed a Title IX retaliation claim against a university that denied her tenure, claiming that the tenure
committee’s decision rested on another professor’s retaliatory, disparaging statements to the committee. Id. at
493, 505-08. The First Circuit rejected her claim, concluding that the plaintiff lacked evidence that the tenure committee was aware of any protected activity, and that the
professor’s “cat’s paw” theory of liability failed for a lack
of evidence, too. Id. at 505-08. Petitioner (at 25) portrays
Theidon as implicitly accepting her cat’s paw theory. But
the fact that the First Circuit concluded that the professor’s cat’s paw theory of liability lacked evidence, instead
of rejecting the theory as legally improper, hardly counts
as an endorsement. Certainly, the decision below does not
conflict with that non-analysis.
III. This Case Does Not Warrant This Court’s Review

1. This case is obviously an unsuitable vehicle to address petitioner’s question presented: whether Title IX
implicitly imposes liability on schools that know of, and
are deliberately indifferent to, an employee’s sex-based
retaliation. This Court ordinarily does not consider arguments “neither raised nor considered below.” E.g., Grupo
Mexicano de Desarrollo, S.A. v. Alliance Bond Fund,
Inc., 527 U.S. 308, 318 n.3 (1999).
Though petitioner never acknowledges this forfeiture,
she insists (at 28-29) that it is undisputed that Rhodes

19
eventually became aware of her belief that Dr. Bea had
retaliated against her. But that point does not show that
an appropriate entity at Rhodes received adequate notice
of Dr. Bea’s alleged retaliation, nor does it show that
Rhodes was deliberately indifferent to that allegation.
Pet. App. 17a.
Indeed, the Sixth Circuit emphasized that these and
other questions remained open and unresolved in this
case. Id. For instance, it is not apparent that petitioner
ever notified an “appropriate person” at Rhodes with authority to address Dr. Bea’s alleged retaliation. Id. (quoting Gebser, 524 U.S. at 290). Even if petitioner did so, it
is unclear that petitioner’s notice to any such entity at
Rhodes was “adequate[].” Id. Taking petitioner’s version
of the facts as true, she never notified the Honor Council
of any inappropriate conduct by Dr. Bea during her three
pre-hearing interviews (C.A. Rec. at 1313-14), and presented no witnesses at the Honor Council hearing to substantiate that allegation. Petitioner instead first mentioned Dr. Bea’s alleged inappropriate conduct during her
closing argument, but even then told the Honor Council
that she did not know why her answers matched Dr. Bea’s
fake answer key. C.A. App’x at 72. And petitioner notified other entities at Rhodes—like the Faculty Appeals
Committee or the Title IX Coordinator—only after the
Honor Council had voted to expel her. That sequence of
events raises questions about the adequacy of petitioner’s
notice to Rhodes that the Sixth Circuit left unanswered in
light of her forfeiture.
Further, even if petitioner provided adequate notice,
it is far from clear that Rhodes was deliberately indifferent to that notice. Rhodes appointed counsel to investigate petitioner’s claims and found them without merit.

20
C.A. Rec. at 1320-21. While petitioner deems this investigation inadequate, she acknowledges that the outside
counsel interviewed all witnesses that petitioner asked
her to interview. Id. Whether those facts could amount
to deliberate indifference even when viewed in the light
most favorable to petitioner is yet another difficult question the Sixth Circuit left open. Pet. App. 17a.
Finally, even if the record could support a conclusion
that Rhodes was deliberately indifferent to Dr. Bea’s
known retaliation, is that allegation even actionable under
Title IX? The Sixth Circuit explicitly did not attempt to
answer that question below. Id.
Delving into these issues now would thus require this
Court to address in the first instance difficult questions
that the district court and Sixth Circuit bypassed in light
of petitioner’s litigation strategy below.
2. Petitioner’s policy concerns with the Sixth Circuit’s
decision are baseless, because they attack an unrecognizable version of that decision where the court somehow held
that a “school can launder even the most blatant discrimination through the expedient of an additional layer of decision-making—even if it uncritically rubber-stamps a decision it knows was based on a prohibited consideration.”
Pet. 2. The Sixth Circuit condoned no such conduct. The
court merely reached the commonsense conclusion that
schools that lack actual notice of alleged misconduct are
not liable for non-supervisory employees’ alleged misconduct. That decision plainly does not “offer[] a roadmap for
federal-funding recipients to insulate themselves from Title IX liability” by abusing multi-layer disciplinary processes to mask retaliation or discrimination in their programs. Pet. 27-28; Amicus Br. 8-11. Because the Sixth
Circuit explicitly did not address petitioner’s forfeited ar-

21
gument that Rhodes had actual notice of and was deliberately indifferent to Dr. Bea’s alleged misconduct, the decision offers no basis for a university to ignore complaints
of sexual harassment or retaliation by its students.
Nor does the Sixth Circuit’s decision authorize a university to deliberately avoid knowledge of discrimination
or retaliation within its programs, as petitioner suggests.
Pet. 27-28. Petitioner did not allege below that Rhodes
deliberately avoided knowledge of discrimination, so the
Sixth Circuit understandably did not consider those circumstances. Thus, petitioner’s mud-slinging that Rhodes
has condoned “weaponiz[ing]” charges of misconduct to
conceal sexual harassment in its programs is utterly baseless. Id. at 26-27.
Likewise, petitioner’s concern that the Sixth Circuit’s
holding will serve as a “limit on the investigative and remedial authority of the U.S. Department of Education”
makes no sense. Id. at 25-26. As discussed above, the
Sixth Circuit’s decision limiting petitioner’s implied Title
IX action does not affect the statute’s express enforcement scheme, wherein the Department of Education can
withhold federal funds from universities that fail to comply with the statute’s nondiscrimination conditions. Supra, pp. 11-12.
What the Sixth Circuit’s decision does do is to vindicate the policies underlying Title IX. The notion that
plaintiffs cannot subject universities to millions of dollars
in damages without actual notice of misconduct within
their programs is eminently sound. As Gebser explained,
“it would frustrate the purposes of Title IX to permit a
damages recovery against a school district for a teacher’s
sexual harassment of a student . . . without actual notice
to a school district official.” 524 U.S. at 285 (quotations
omitted). To do so risks “diverting education funding

22
from beneficial uses where a recipient was unaware of discrimination in its programs and is willing to institute
prompt corrective measures.” Id. at 289.
Rhodes does not take lightly the problem of sexual
harassment in American universities. That is why Rhodes
maintains and enforces an extensive Title IX policy to
combat sexual harassment and discrimination (available
at https://sites.rhodes.edu/titlenine). Consistent with that
policy, Rhodes facilitates the reporting of sexual harassment or discrimination by other students or professors,
provides medical and counseling assistance to victims of
such misconduct, and appoints outside counsel to thoroughly and independently investigate reported instances
of misconduct. That voluntary and enthusiastic compliance with Title IX is precisely what Congress envisioned
in enacting the statute. Petitioner’s attempt to hold
Rhodes liable for millions of dollars in damages despite
Rhodes’s vigorous efforts to keep its educational programs free of discrimination and harassment would only
undermine Title IX’s objectives.
CONCLUSION

The petition for a writ of certiorari should be denied.
Respectfully submitted,
LISA S. BLATT
SARAH M. HARRIS
SUMEET P. DANG
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
lblatt@wc.com
NOVEMBER 25, 2020

